DOE/IG-0419



         AUDIT
        REPORT


                                          THE
                                DEPARTMENT OF ENERGY'S
                                 PEER REVIEW PRACTICES




                                         APRIL 1998




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
                                      DEPARTMENT OF ENERGY
                                            Washington, DC 20585

                                                April 6, 1998


MEMORANDUM FOR THE SECRETARY

FROM: Gregory H. Friedman
      Acting Inspector General

SUBJECT: INFORMATION: Audit Report on "The Department of Energy's Peer Review
         Practices"

BACKGROUND

Fulfilling the requirements of the Government Performance and Results Act of 1993 has presented Federal
science agencies with the challenge of defining ways to quantify and evaluate the outcomes of research.
Measuring research program performance is particularly important for the Department of Energy because of
its substantial investment (approximately $7 billion in Fiscal Year 1996) in research and development
activities.

The Research Roundtable, in 1995, observed that the results of research could be evaluated using the
performance indicators of relevance, productivity, and quality. One method for doing so is formal, objective
evaluation by independent reviewers, or peer review. The objective of the audit was to determine whether
the Department had established and was managing a peer review process for evaluating scientific and
technical projects.

RESULTS OF AUDIT

Peer review programs had been established to manage various research and development activities at the
Department’s National Renewable Energy Laboratory and the Pacific Northwest and Los Alamos National
Laboratories. We found that peer reviews were conducted prior to competitive award of subcontracts,
selection of projects from research proposals, and inclusion in scientific journals and/or conferences. In
addition, the Department and the laboratories, in response to the Government Performance and Results Act
and performance-based contracting, had incorporated peer review into the laboratories annual performance
self-assessment process. The results of these reviews were used to determine program direction, obtain
input on ongoing programs, and priority funding for laboratory and Departmental research activities.

This report does not include any recommendations since the laboratories had established processes in
accordance with Office of Management and Budget and Departmental peer review requirements. The audit
included only three of 20 laboratories that received Departmental research and development funding in
FY 1996. Therefore, there is no assurance that our conclusions can be extended to the peer review practices
at all DOE laboratories or research programs.


Attachment

cc: Deputy Secretary
    Under Secretary
THE DEPARTMENT OF ENERGY'S PEER REVIEW PRACTICES


TABLE OF
CONTENTS



                 Overview

                 The Department of Energy's Peer Review Process ...............................1


                 DOE Peer Review Practices

                 Results of Audit ..................................................................................3


                 Appendix 1

                 Scope and Methodology......................................................................9


                 Appendix 2

                 List of Peer Reviews .........................................................................12
Overview
INTRODUCTION AND   Recent laws enacted by the President and the Congress and program
OBJECTIVE          evaluation initiatives from the Office of Management and Budget
                   (OMB) require Federal agencies, including agencies actively involved in
                   scientific research, to develop annual performance plans. These plans
                   should include suitable performance measures, document program
                   outcomes, and use merit review with peer evaluation and competitive
                   selection of Federal research and development (R&D) projects.
                   Measuring program performance is particularly important for the
                   Department of Energy (DOE) because of its substantial investment
                   ($6.7 billion in Fiscal Year 1996) in R&D activities.

                   In 1995, the Research Roundtable, a group of Federal researchers and
                   managers representing a cross-section of departments and agencies,
                   concluded that the results of research program performance could be
                   measured and evaluated using various assessment methods, including
                   peer review, to determine the relevance, productivity, and quality of
                   research activities.

                   Peer review is defined as a competent, qualified, objective, and formal
                   evaluation by independent reviewers using specified criteria. As a
                   scientific custom, peer review is an organized method for evaluating
                   work that is used by scientists to certify the correctness of procedures,
                   establish the plausibility of results, and allocate scarce resources such as
                   research funds, special honors, and space in professional journals.

                   The Department emphasized its commitment to peer review in its 1994
                   and 1997 Strategic Plans. As a success indicator for its science and
                   technology programs, the Department is committed to maintaining "the
                   high quality and relevance of DOE's science as evaluated by annual peer
                   reviews and advisory committees."

                   Peer review, in addition, plays a role in guiding the formation of
                   research and development budgets. In 1994, the OMB, along with the
                   White House, Office of Science and Technology Policy, issued a
                   memorandum to Federal agencies that established peer review (merit
                   review with peer evaluation) as an R&D principle. In developing their
                   Fiscal Year 1996 budgets, Federal agencies were advised to
                   "significantly enhance the utilization of merit review with peer
                   evaluation and competitive selection in Federal R&D projects."

                   The objective of the audit was to determine whether the Department
                   had established and was managing a peer review process for evaluating
                   scientific and technical projects.

Page 1                                                        The Department of Energy's
                                                              Peer Review Process
CONCLUSIONS AND   At the three laboratories where audit work was performed, the
OBSERVATIONS      Department had established and was managing a peer review process for
                  scientific and technical projects. The National Renewable Energy
                  Laboratory (NREL), the Pacific Northwest National Laboratory
                  (PNNL), and the Los Alamos National Laboratory (LANL) had
                  instituted peer review programs in accordance with Administration
                  policy and OMB requirements. In addition, the results of these reviews
                  were being utilized to guide the R&D activities at the laboratories for
                  the following programs: Defense Programs, Energy Efficiency,
                  Environmental Management, Energy Research, and Nuclear
                  Nonproliferation and National Security.

                  Third-party reviewers performed peer reviews of laboratory divisions.
                  In addition, customers, ranging from principal investigators to assistant
                  secretaries, utilized peer review results to guide Department and
                  laboratory R&D activities. Results were used to determine program
                  direction, obtain input on ongoing programs, and prioritize funding for
                  projects based on research results. They were also considered as part of
                  contractor self-assessments and Departmental performance evaluations.

                  Additionally, individual peer review committee members contacted
                  during the course of the audit characterized the Department's peer
                  review processes as an effective method for providing direction to the
                  Department's R&D activities. Committee members stated they were
                  satisfied that the results of their peer review efforts were being
                  considered by the laboratories and the Department.

                  This report does not contain recommendations since the three
                  laboratories had established and were managing peer review processes.
                  However, the audit examined only three of 20 Department laboratories
                  that received R&D funding in Fiscal Year 1996. Therefore, there is no
                  assurance that our conclusions can be extended to the peer review
                  practices at all DOE laboratories or research programs.


                                               ________/s/____________
                                                Office of Inspector General




Page 2                                                     The Department of Energy's
                                                           Peer Review Process
DOE Peer Review Practices

Department And M&O        Administration R&D policy principles issued by the White House, Office
Contractors Required To   of Science and Technology Policy, direct Federal agencies to use merit
Conduct Peer Reviews      review with peer evaluation (peer review) and competitive selection in
                          R&D projects. Chosen activities must be reviewed, in accordance with
                          OMB Circular A-11, by appropriately qualified scientists and engineers
                          outside the decision-making or supervisory chain.

                          Under the Government Performance and Results Act (Results Act) of
                          1993, Federal agencies are also required to establish long-term strategic
                          goals, measure performance against those goals, and report publicly on
                          how well they are doing. To facilitate this process, the Department of
                          Energy has required its laboratories to develop a formal program to
                          evaluate their research, science and technology, or scientific excellence
                          and productivity programs. These evaluations, which are performed at
                          least annually, are based on a combination of peer review and self-
                          assessment.

                          The Department's 1994 and 1997 Strategic Plans underscored the
                          importance of independent third-party reviews. In order to meet the
                          Department's strategic goals for its science and technology, the
                          Department plans to utilize peer review as a performance measure.
                          Success in meeting its goals for science and technology would be
                          indicated by favorable outside peer reviews and judgments of expert
                          advisory committees.


Implementation Of Peer    The laboratories used peer review, and the outcomes of these reviews,
Review Programs           as a mechanism to guide R&D programs and projects through their life
                          cycle. With the advent of the Results Act and performance-based
                          contracting, peer review had also become a part of the contractors'
                          annual (or semi-annual) performance self-assessment and performance
                          evaluation processes.

                                                 Peer Review Practices

                          As a scientific custom, peer review was being used by the three
                          laboratories to guide their R&D programs and projects. The peer
                          review practices in place involved the competitive selection of
                          subcontracts; submission of new research proposals; Departmental and
                          other third party reviews; submission of scientific information at
                          conferences or scientific journals, and determination of recognition and
                          awards. For example, many of the programs reviewed at NREL


Page 3                                                                           Results of Audit
         included subcontracted activities. External program review and standing
         advisory committees served as technical peer review groups for
         competitive selection of these subcontracted projects. Peer review was
         also used to evaluate new proposals. At PNNL, the peer review process
         was designed to ensure that proposals had scientific quality and were
         targeted to key technology problems.

         Peer review has also been a traditional aspect of the Department's and
         other third-party evaluations of the contractors R&D activities. At
         NREL, the DOE Photovoltaics Division Director assessed the status,
         accomplishments, issues, and future directions for the NREL
         Photovoltaics Program. The laboratory used this assessment to develop
         a Draft Operating Plan that described NREL's strategy for supporting
         the DOE Photovoltaics program. New projects and programs at LANL
         were also subject to various peer reviews. To illustrate, the LANL
         research effort of Proton Radiography was reviewed in January and
         November of 1996 by external third party reviewers, as well as by the
         LANL Physics Division Advisory Committee. Appendix 2 provides a
         listing of the some of the peer reviews that occurred at the three
         laboratories in Fiscal Year 1996.

         The publication of original work in the open literature constituted
         another form of peer review. The quality of written products by R&D
         performers was evaluated by third-party reviewers prior to being
         accepted for publication in archival, peer-reviewed journals. Two of the
         laboratories compiled data on staff publications. Database searches
         conducted by LANL and PNNL for Fiscal Year 1996 showed 1,456 and
         491 publications, respectively, in peer-reviewed journals. Listings of
         NREL publications were available for each research line-of-effort
         included in the review.

         Research products of the laboratories were also subject to peer review
         by independent parties in the determination of recognition and awards.
         R&D 100 Awards, for example, are provided to the 100 most significant
         technical products or advances in each year. The following table shows
         the R&D 100 Awards received by the three laboratories in 1996.




Page 4                                                         Results of Audit
                                        Table I
                                 1996 R&D 100 Awards


                   NREL         Automobile Exhaust Catalytic Converter


                                      ®
                   PNNL         SPIRE (Spatial Paradigm for Information
                                   Retrieval and Explanation Software)
                                Liquid Multilayer/Polymer Processes for
                                   Vacuum Deposition of Polymer Films
                                CEO - Catalyzed Electrochemical Oxidation
                                Autonomous Environmental Sentinel - AES


                   LANL         PLASMAX (Plasma Mechanical Cleaner for
                                  Silicon Wafers)
                                TRACER (Transportable Remote Analyzer
                                  for Characterization and Environmental
                                  Remediation




                   Contractor Performance Self-Assessments

         In response to the Results Act and performance-based contracting, the
         Department and the three laboratories built upon these traditional peer
         review practices and instituted peer review as a formal part of the
         contractors' self-assessments and the Department's performance
         evaluation process. In this regard, NREL, PNNL, and LANL
         incorporated peer review into their performance self-assessment
         processes.

         For example, the laboratories relied on peer reviews by external Division
         Review Committees to provide independent assessments of R&D
         activities. At NREL, peer reviews were conducted on all technical work
         resulting from the Photovoltaics Program. These reviews were
         performed by Division Review Boards, Program Review Committees,
         and Standing Advisory Committees. All board and committee members
         were independent, third-party reviewers drawn from the university and
         industry community. Similarly, independent reviews were conducted on
         other NREL programs. Results from these reviews were incorporated
         into self-assessment reports that were provided to the Department for
         use in their annual performance evaluation of the laboratory.

Page 5                                                             Results of Audit
                        In another case, the Department's Richland Operations Office teamed
                        with PNNL to develop mutually agreed-on performance objectives and
                        indicators. Independent Division Review Committees were formed to
                        review and evaluate the laboratory's major programs/projects, and
                        evaluate the core technical capabilities, product lines, and technologies.
                        For example, the Energy Technology Division Revision Committee for
                        PNNL was comprised of individuals external to the laboratory
                        representing academia, industry, government, and other national
                        laboratories. The division review committees at PNNL were intended to
                        complement, but not replace, other technical reviews required by the
                        sponsors of the program.

                        The Los Alamos National Laboratory also has an annual science and
                        technology assessment program. Assessments are performed by
                        independent Division Review Committees selected by the laboratory
                        director. Participants are selected from the private sector, universities,
                        and Federal laboratories based on the breadth of their experience,
                        expertise, and ability to understand the full spectrum of division
                        activities. The results of the LANL self-assessment are provided to the
                        University of California's President's Council on National Laboratories
                        and to the Albuquerque Operations Office for use in the annual
                        contractor performance evaluation.

                        The Department uses contractor self-assessment results as a part of its
                        annual contractor evaluation and appraisal process. Other components
                        of the Department's appraisal process include an evaluation of
                        Laboratory Management; Environmental, Safety and Health; and
                        Science and Technology. The Department evaluates and provides
                        scores to these areas to calculate the contractor's annual rating. These
                        scores determine salary increase multipliers, performance-based fees,
                        and/or award fees.

Peer Review As An R&D   Independent reviews were used to provide data for program direction,
Management Tool         obtain input, and prioritize research projects. To illustrate, based on the
                        recommendations of the National Research Council, Environmental
                        Management's Office of Science and Technology entered into an
                        agreement with the American Society of Mechanical Engineers to
                        provide independent and timely peer review over the development of
                        environmental management technologies. The implementation of this
                        recommendation resulted in the Department obtaining third-party
                        reviews of research proposals, interim reports, and final reports.




Page 6                                                                           Results of Audit
               Peer review was also used by DOE program managers to obtain input
               on ongoing programs. For example, the results of a peer review on the
               Atmospheric Radiation Measurement Program (ARM) addressed
               questions PNNL had regarding program design, execution, and
               management. Third-party external reviewers provided comments on
               the objectives and strategies of the program and how they had evolved
               since the program's inception, whether the level of expenditure was
               consistent with the scientific significance of the program, and whether
               data management was sound. The external review resulted in an
               emphasis being placed on properly identifying which scientific tests
               were to be performed, an increase in the interaction with satellite
               programs, and a recommendation to have one of the ARM sites
               designated as a user facility.

               Merit review with peer evaluation was, in addition, used to prioritize
               projects. As an example, in July 1995, the Office of Energy Research
               coordinated a peer review of 115 research projects sponsored by the
               National Photovoltaics Program. The purpose of the review was to
               determine the quality of individual research projects, the impacts of
               these individual projects on the mission of the program, and the priority
               of future research opportunities. A group of 100 technical experts
               formed 15 panels, and the panels were each assigned between 7 and 9
               projects for review. Based on the results of the review panels, 13
               projects with serious deficiencies were terminated.


The Value of   We discussed the value of the DOE peer review process with members
Peer Review    of peer review committees. Committee members, on the whole, held
               the laboratories’peer review programs in very high regard. Members
               who were interviewed identified three characteristics that distinguished
               peer review processes of Department of Energy funded R&D from their
               other peer review experiences.

               First, committee members stated that, in Departmental peer reviews,
               adequate information was given to tie the project or program under
               review to the current organizational mix, and ultimately, to whether
               there was value in the project to the Department. One committee
               member noted that during NREL Peer Reviews sufficient time was
               spent examining the mission of the Department; tying it to the current
               organizational mix; reviewing specific projects; and then making a
               determination of the value of the project to the Departmental mission.
               This contrasted with the experiences of the committee members who
               had participated in non-Departmental peer reviews. In their opinion,

Page 7                                                                Results of Audit
         these other reviews did not provide enough information to put the
         research project or program in a larger context.

         Second, interviewed peer review committee members agreed that the
         Department and the laboratories were responsive to recommendations.
         A member of the LANL committee commented on the high regard that
         management placed on comments of the peer review committee. This
         individual noted that they were pleased to see that recommended
         adjustments to a program had been implemented in response to a prior
         review, even though there had been "some severe comments." Similarly,
         NREL and PNNL committee members noted that recommendations
         were "seriously responded to" or "taken into consideration with
         appropriate changes made in the direction of research."

         A third characteristic that provided value to the Department's peer
         review process was that committees were comprised from diverse and
         multiple disciplines. A PNNL committee member noted that the "multi-
         disciplinary team approach led to free and open review and analysis of
         an entire program." Similarly, committee members from LANL also
         commented that the "diversity of disciplines on peer review committees
         provided for a more thorough and in depth review capability than
         available for other peer reviews."

         This report does not contain recommendations since the three
         laboratories had established peer review processes. No exceptions or
         issues that required management's attention were identified as a result of
         applying the audit procedures to the specified lines of effort. The results
         of this audit are not projectable to other research and development
         projects, lines of effort, or Departmental programs.




Page 8                                                           Results of Audit
Appendix 1

SCOPE        The audit examined the peer review process for research and
             development (R&D) activities at three Department of Energy
             laboratories: Los Alamos National Laboratory (New Mexico), the
             National Renewable Energy Laboratory (Colorado), and Pacific
             Northwest National Laboratory (Washington). In Fiscal Year 1996, the
             Department's R&D effort totaled about $6.7 billion. Of that amount,
             about $4.5 billion was allocated to the Department's laboratories. The
             remaining $2.2 billion was allocated to Departmental field and
             operations offices research efforts.

             Sites were selected and included in the review on the basis of whether or
             not the laboratory received funding for more than one program and
             whether line item funding was significant. The laboratories selected for
             review received $653 million of the $4.5 billion budgeted for R&D in
             Fiscal Year 1996. The following table shows the R&D line item
             selected for review and the respective program/project, laboratory, and
             Fiscal Year 1996 budget amount.


                                           Table II
                             R&D Program/Projects Selected for Review

                    R&D Line Item              Program/Project        Lab     FY96 Budget


              DP    Stockpile Stewardship      Nuclear Weapons        LANL    $ 374,440,000
                                               Technology


              EE    Energy Conservation        Transportation         NREL      44,991,000
                                               Sector


              EE    Solar & Renewable          Photovoltaic Energy    NREL      38,000,000
                    Energy                     Biofuels/Biopower      NREL      20,390,000


              ER    Biological &               Biological &           PNNL      96,986,000
                    Environmental              Environmental


              EM    Technology Development     Technology             PNNL      21,178,000
                                               Development


              NN    National & International   Nonproliferation &     LANL      57,445,000
                    Security                   Verification R&D


                                                                      TOTAL   $ 653,430,000




Page 9                                                               Scope and Methodology
METHODOLOGY   To accomplish the audit objective, Federal regulations related to peer review
              were examined to determine their applicability to laboratory operations. A
              White House, Office of Science and Technology Policy, and Office of
              Management and Budget memorandum on Fiscal Year 1996 R&D policy
              principles and budget guidance was reviewed to identify the Administration's
              directive with regard to peer review. In addition, a Department of Energy
              "white paper" was analyzed to determine whether the report identified problems
              in Departmental peer review practices. Policies, procedures, and contractual
              requirements were obtained to determine peer review procedures and
              requirements included in M&O contracts. Finally, scientific research
              performance measures and criteria from the Department's Report of the Contract
              Reform Team were reviewed for their applicability to the DOE contracts with
              M&O contractors included in this review.

              Listings of projects, programs, associated dollar amounts, and peer reviews
              performed were obtained at each of the three sites; and peer review practices
              were examined for projects with the highest dollar value. Selected projects were
              discussed with responsible scientists and managers who provided information on
              the purpose of the project or program, whether the project had been subject to
              either in-house or external peer review, and if the results of the review were used
              to guide the R&D effort. Listings were also obtained of program-related articles
              and conference proceedings that had been subject to peer review.

              Discussions were held with Headquarters, field and operations office, and
              contractor officials who provided information regarding peer review practices,
              contractor performance self-assessments, and applicable contract clauses.
              Meetings were also conducted with Headquarters and contractor finance
              officials to obtain budget and reporting categories, specific program/project
              titles, as well as cost and funding amounts on programs selected for review.
              Technology managers, scientists, program managers, and others responsible for
              managing the R&D programs and projects at the laboratories met with the audit
              team to provide information on peer review practices specific to their projects
              and programs.

              Finally, the audit team contacted peer review members to obtain their views on
              whether the peer review process was worthwhile and if their results were
              utilized. Fieldwork for the review was conducted from August to November
              1997.

              The audit was conducted in accordance with generally accepted Government
              auditing standards for performance audits, which included tests of internal
              controls and compliance with laws and regulations to the extent necessary to


Page 10                                                              Scope and Methodology
          satisfy the objectives of the audit. Internal controls were evaluated with
          respect to controls over peer review of Departmental R&D projects.
          Because the review of internal controls was limited, it would not have
          disclosed all internal control deficiencies that may have existed.
          Computer-processed data was only used to select the sites and projects
          included in the review; therefore, an assessment was not made regarding
          the data's reliability or accuracy.




Page 11                                                 Scope and Methodology
Appendix 2

             Listed below are some of the peer reviews conducted during Fiscal Year
             1996 at the National Renewable Energy Laboratory, the Pacific
             Northwest National Laboratory, and the Los Alamos National
             Laboratory. Departmental programmatic or internal reviews conducted
             by the laboratories are not included.


                              National Renewable Energy Laboratory

             Photovoltaic Energy Program           NREL Photovoltaics Advisory
                                                   Committee
                                                   Science & Industry Review
                                                   Committee

             Biofuels/Biopower                     NREL Staff - Observe Project
             Demonstration Projects                Development - Advise DOE


             Hybrid Electric Vehicles              National Research Council -
                                                   Through its ongoing review of
                                                   the Partnership for New
                                                   Generation Vehicles


             Alternative Fuels Utilization         NREL Staff - Monitor
                                                   subcontracts/Advise DOE


             Alternative Fuels Utilization         Coordinating Research Council

             Biofuels Program                      Ethanol Project Technical
                                                   Review Panel


                              Pacific Northwest National Laboratory

             Tanks Focus Areas Review              Tanks Focus Area - Technical
                                                   Review Group




Page 12                                                      List of Peer Reviews
                              Los Alamos National Laboratory

          Nuclear Weapons Technology/          JASON - The Mitre Corporation
          Proton Radiography

          Nuclear Weapons Technology           Physics Division Review
                                               Committee

          Nonproliferation and                 Nonproliferation and
          International Security Division      International Review Committee




Page 13                                                  List of Peer Reviews
                                                                               IG Report No. DOE/IG-0419

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                       following alternative address:


                Department of Energy Human Resources and Administration Home Page
                                     http://www.hr.doe.gov/ig

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.

                                   This report can be obtained from the
                                       U.S. Department of Energy
                              Office of Scientific and Technical Information
                                               P.O. Box 62
                                      Oak Ridge, Tennessee 37831
